Inspection Report I-98-20  -  Table of Contents
U. S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
Border Patrol Drug
Interdiction Activities on the
Southwest Border
Report Number I-98-20
September 1998
Table of Contents
Transmittal Memorandum
INTRODUCTION
RESULTS OF THE INSPECTION
The Border Patrol Needs to Improve the Security, Accountability, and
Chain of Custody for Seized Drugs
Storage
Transfer and Accountability
The Border Patrol Needs to Address Pursuing Drug Smuggling Suspects
and Securing Abandoned Drugs
Chart 1: Pursuit and Apprehension
The Border Patrol Needs to Improve Its Practices for
Removing Deportable Aliens Arrested During Drug Seizures
Chart 2: Outcomes of Deportable Aliens
Chart 3: Aliens Voluntarily Returned vs All Other
Deportable Aliens
The Border Patrol Needs to Improve Drug Interdiction
Intelligence
CONCLUSIONS AND RECOMMENDATIONS
Appendix I Methodology and Analysis of Case Sample
Appendix II Immigration and Naturalization Service
Response to Draft Report
Appendix III Office of the Inspector General's
Analysis of Management's Response
MEMORANDUM FOR DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:            Inspection
of Border Patrol Drug Interdiction Activities on
the Southwest Border, Report Number I-98-20
In our continuing effort to address illegal immigration and related issues, we
conducted an assessment of the Immigration and Naturalization Service's (INS) Border
Patrol drug interdiction activities on the Southwest border.
At most of the stations we visited, the Border Patrol stores seized drugs in an
insecure manner and does not maintain proper chain of custody and accountability when
these drugs are transferred to other agencies. While a variety of drug handling and
storage practices occur in the field, drug evidence is routinely stored in open areas on
the floors of some Border Patrol stations. The Border Patrol transfers large quantities of
drugs without listing the seized evidence on evidence custody logs as required, and
without keeping reliable internal records of who took custody of the drugs.
The Border Patrol Handbook explicitly states the proper procedures for maintaining
chain of custody when transferring evidence internally or to an external agency. Although
the Border Patrol has no specific written guidance for handling of drug evidence, at a
minimum the written procedures for handling other evidence should apply to drug evidence
as well. A majority of the Border Patrol agents with whom we spoke were not aware of the
evidence custody log, Form I-641, and only 3 of the 17 stations we visited had a
designated evidence custodian. Additionally, very few Border Patrol stations have an
internal record of drug transfers beyond the Form I-44, Report of Apprehension or Seizure,
which is often not filled out accurately, completely, or timely.
The Border Patrol has no general policy on the pursuit of drug smuggling suspects who
abandon drugs and flee. Based on our sample of drug seizure cases in fiscal year 1996,
when drug smuggling suspects were seen and pursued, 36 percent of the cases resulted in
the suspects dropping the drugs and escaping apprehension. There are circumstances when it
is reasonable and prudent for agents to cease pursuit, primarily when the pursuit would
endanger their life. However, Border Patrol agents often ceased pursuit, in effect
allowing the suspects to escape, in order to focus on seizing and securing the drugs
dropped by these suspects. INS officials informed us this is primarily due to a lack of
understanding of the importance of suspect apprehension in drug interdiction cases. While
there was no guarantee that the suspects in these cases would have been apprehended had
the pursuit been uninterrupted, the ceasing of pursuit, even temporarily, greatly
increases, and in some cases ensures, the likelihood that there will not be an
apprehension.
INS practices for removing deportable aliens arrested during drug seizures enable many
suspected drug smugglers to avoid any legal sanctions for their illegal entry into the
United States. The Border Patrol allowed deportable aliens in our case sample who were
involved in drug smuggling to be granted a voluntary return or voluntary departure to
Mexico, usually with no further processing for drug or immigration violations. We believe
that any time there is a reason to believe that an alien is involved in drug smuggling,
that alien should be deported and not granted a voluntary return or voluntary departure.
Some of these aliens who were voluntarily returned were convicted, aggravated felons and
should have clearly been deported. The lack of aggressive removal practices resulted in
only 31 percent of the deportable aliens in our case sample actually being deported.
There were an additional 34 aliens in our case sample who were incarcerated for their
criminal drug convictions at the time of our field work. Eighteen of these aliens, or 53
percent, did not have INS detainers placed in their files. The placement of detainers by
the Border Patrol is crucial to ensure that individuals are released to INS custody to
face deportation after their criminal matters are resolved. Without detainers, INS would
probably not have been notified of the release of these 18 deportable aliens, and they
would have likely escaped deportation. We informed INS of the names of these 18 deportable
aliens so that it may file detainers on them.
The Border Patrol fails to systematically collect, record, and analyze much of the
information of intelligence value that Border Patrol agents have access to during drug
seizures and related arrests. Border Patrol agents often do not have the opportunity to
interrogate suspects for drug interdiction intelligence. INS does not routinely retain
suspects' fingerprints in drug seizure cases and enter them into identification databases
such as the automated biometrics identification system (IDENT) Lookout. If the Border
Patrol routinely took and maintained prints of all aliens apprehended in drug seizure
cases, a database could easily be established to help identify aliens apprehended
repeatedly for smuggling drugs. Such a database would be invaluable in conducting analysis
and predicting trends for Border Patrol drug interdiction efforts along the Southwest
border.
Our report contains ten recommendations that we believe will assist INS and the Border
Patrol in improving drug interdiction activities along the Southwest border between the
ports of entry. These recommendations deal with drug storage and transfer practices;
pursuit and apprehension of illegal alien drug smugglers; removal of deportable aliens
arrested during drug seizures; and collecting, developing, and maintaining intelligence
information and fingerprint databases on drug smugglers and smuggling operations. We hope
our comments, suggestions and recommendations in the attached report will be useful in
your efforts to address these issues.
We sent copies of the draft report to your office on June 11, 1998, and requested
written comments on the findings and recommendations. Your August 14, 1998, response
addressed each of the ten recommendations and the findings. We have attached your response
as Appendix II.
On the basis of your written comments, we considered all recommendations resolved but
have kept them open pending further action. Appendix III explains what actions are needed.
Please respond by November 20, 1998, with the actions taken and provide the additional
information requested. If actions have not been completed, please provide projected
completion dates. Guidance on report follow-up and resolution can be found in Department
of Justice Order 2900.10.
We appreciate the cooperation of managers and staff throughout the INS as we carried
out our review. Please let me know if we can provide you with any additional information.
If you have any suggestions how we might improve our review process, please let us know.
Attachment
cc: Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
INTRODUCTION
The Drug Enforcement Administration (DEA) estimates that more than half of all the
cocaine and marijuana entering this country comes across the 2,000-mile U.S.-Mexico border
between McAllen, Texas, and San Diego, California. This Southwest border region is also
the focal point for the Immigration and Naturalization Service's (INS) efforts to curb
illegal entry and alien smuggling. Over the past few years, a high volume of drug
smuggling and illegal immigration has thrust INS' Border Patrol into a new role of
assisting law enforcement agencies in seizing drugs and apprehending suspected drug
smugglers.
The problems of drug smuggling and illegal immigration are closely linked. There is no
single agency with sole responsibility or control over enforcement efforts along the
Southwest border. Consequently, the drug and immigration problems require multi-agency
solutions. At the hub of this effort to reduce the flow of narcotics and illegal aliens
into the United States are the Border Patrol, DEA, and the U.S. Customs Service.1
The primary mission of the Border Patrol is to prevent illegal entry across the United
States' borders between the designated Ports of Entry (POEs). Over the past decade, this
mission has expanded to include interdiction of drugs and apprehension of suspected drug
smugglers. In 1991, the Office of National Drug Control Policy (ONDCP) designated the
Border Patrol as the primary drug interdiction agency between the POEs on the Southwest
border.2 Drug interdiction is such a significant part of the
Border Patrol's mission that the President, in his 1998 State of the Union address,
pledged to hire an additional 1,000 Border Patrol agents to help curtail drug smuggling at
our borders.
The Border Patrol interdicts drugs through two different operations: conducting vehicle
inspections at traffic checkpoints within the United States and conducting border
operations by patrolling the border itself. As used in this report and based on the Border
Patrol Reports of Apprehension and Seizure (Forms I-44), drug seizure cases include cases
involving an individual caught physically in possession of seized drugs, cases involving
apprehension of an individual or individuals in the proximity of seized drugs, and cases
of seized drugs found abandoned.
The volume of Border Patrol drug seizures along the Southwest border has increased
substantially during the past five years: Marijuana seizures along the Southwest border
have increased 60 percent from 457,000 pounds in fiscal year (FY) 1993 to just over
730,000 pounds in FY 1997.3 Cocaine seizures increased from 27,000
pounds in FY 1993 to a high of over 42,000 pounds in FY 1995 and down to 12,500 pounds in
FY 1997. Along the Southwest border, the Border Patrol is responsible for seizing
approximately 80 percent of the marijuana and 27 percent of the cocaine seized by federal
authorities.4
Because the Border Patrol's mission with respect to drug smuggling activities is
limited to interdiction rather than investigation, its drug seizure cases are usually
turned over to the DEA or another federal, state, or local agency for investigation and
prosecution.5 The Border Patrol works most frequently with DEA,
which has the primary federal jurisdiction to investigate drug smuggling. The Border
Patrol can decide to pursue prosecution itself only if DEA declines; however, the Border
Patrol has rarely, if ever, utilized this option.
Cooperation among the Border Patrol, DEA, and other law enforcement agencies along the
Southwest border is imperative for drug interdiction and investigation efforts to succeed.
On March 25, 1996, INS and DEA signed a Memorandum of Understanding (MOU). The MOU
provides guidelines, limitations of authority, delineations of responsibility, and general
procedures for the Border Patrol to follow in its drug interdiction activities. Included
in this MOU are guidelines for granting all Border Patrol agents limited federal authority
to conduct searches for and seize drugs at or along the border as long as probable cause
is established.6
This Inspection Report focuses on four issues: 1) Border Patrol drug storage and
transfer practices; 2) policies on whether to pursue drug smuggling suspects or secure
abandoned drugs; 3) the disposition of aliens arrested in drug seizure cases; and 4) the
use of drug interdiction intelligence.
The Southwest border encompasses nine Border Patrol sectors, each with 5 to 13 stations
under their jurisdiction. Our Inspection Team visited 15 stations at four of the nine
sectors: El Centro and San Diego California; El Paso, Texas; and Tucson, Arizona.
Inspectors reviewed at least 100 drug seizure cases from each of these four sectors
randomly selected from I-44 forms (Report of Apprehension or Seizure) for FY 1996. The
circumstances of these drug seizure cases and the aliens involved in them form the basis
of our findings. Our sampling methodology is discussed in Appendix 1.
RESULTS OF THE INSPECTION
The Border Patrol Needs to Improve the
Security, Accountability, and Chain of Custody for Seized Drugs
At most of the Border Patrol stations we visited, seized drugs were stored in an
insecure manner and proper chain of custody and accountability in transferring drugs to
receiving agencies were not maintained. Drug evidence is routinely stored in open areas on
the floors of some Border Patrol stations. The Border Patrol transfers large quantities of
drugs without listing the seized evidence on evidence custody logs as required, and
without keeping reliable internal records of who took custody of the drugs.
Storage
The Border Patrol routinely handles drug evidence and is responsible for the security
and storage of drugs until receiving agencies take custody. However, the Border Patrol has
no written drug evidence storage policies or procedures. Accordingly, a variety of drug
handling and storage practices occur in the field. Border Patrol methods of drug storage
vary not only from sector to sector, but also within sectors between stations. Most Border
Patrol supervisory agents we questioned contended that handling, security, and storage
practices for drugs are no different than for any other kind of evidence or personal
property, so no separate or additional policies are needed. However, in practice, the
Border Patrol stores drugs differently than other evidence depending on the facilities and
equipment available.
There were five different storage practices being utilized in the 15 Border Patrol
stations we visited and the 2 we contacted. The storage facilities being used included
evidence storage rooms, safes and lockers, detention cells, a locked metal container, and
floor space in open office areas. Supervisory agents discussed with us the methods used in
their stations, and showed us the storage facilities and photographs of various drug
seizures, some showing the drugs stored on the floor. Several stations used more than one
type of storage facility depending on circumstances such as the volume of the drugs seized
and the size of the station's safe, or the number of aliens being detained at the time of
the drug seizure.
One station maintained a locked metal container, similar to those used for shipping
bulk items commonly seen on cargo ships, to store its drugs. The container sits outside of
the station building but within the station compound. Three other stations, primarily the
newer stations, use drug evidence rooms. The Nogales, Arizona, station uses a specially
designated drug storage evidence room complete with video surveillance, individual
evidence lockers for certain types of drugs, and cipher locks on the doors. Another two
stations had evidence storage rooms, with fewer security measures, in which all types of
evidence or valuable items are stored. During our visit to one of these stations no one
present knew the combination to the lock for the evidence room; however, at the other
station, numerous people had access to the evidence storage room because the key was
hanging with other facility keys in an unlocked room. With the exception of the newest
stations, these stations were built to house a significantly smaller number of agents than
are currently assigned. The Douglas, Arizona, station, for example, was built to hold a
capacity of approximately 90 people, but there are currently around 265 agents and 18
support personnel working in that station. The resulting overcrowded situations,
especially during shift changes, increase the vulnerability of theft or loss of seized
drugs.
Five of the 17 stations we visited lock drug evidence in one of their unoccupied
detention cells. These detention cells usually have one wall made of wire or glass to
allow visual observation of the interior. The keys to the detention cells are usually
maintained in a central location with one or more individuals responsible for them. Using
detention cells creates a problem when a large number of aliens must be detained because
detention takes priority over drug storage. Another four stations utilized some sort of
small locking safe or locker. At all of these nine stations, if the detention cells were
being used or the volume of drugs exceeded the size of the safe or locker, the drugs were
piled on the floor of the station. In addition to these nine stations, another four,
usually the smaller, older ones with only one or two detention cells, stated they almost
always stack the drugs on the floor, regardless of how many detainees are being housed.
Storage practices such as these increase the risk of drug loss, contamination of evidence,
and corruption.
INS should establish policies and procedures that clearly define how the Border Patrol
is to properly store drugs. With the large influx of new Border Patrol and Immigration
agents along the Southwest border, INS is being forced to address Border Patrol facility
issues. It is scheduling upgrades or new building construction for many Border Patrol
stations. INS needs to ensure that there will be adequate drug evidence storage rooms in
these new and upgraded facilities. Meanwhile, INS should improve drug evidence storage
facilities at existing stations as it works on these upgrades at Border Patrol stations
and sectors.
Transfer and Accountability
When handling and transferring drug evidence, the Border Patrol is concerned with two
issues; chain of custody of the evidence for prosecution purposes and internal
accountability to limit theft and loss of evidence. When Border Patrol agents process drug
evidence and transfer drugs to other agencies for case prosecution or destruction, there
is a lack of consistent adherence to proper chain of custody procedures. For evidence that
is not uniquely identifiable, such as drugs, to be admissible in court and contribute
toward a conviction, a chain of custody must be sufficiently shown to establish that the
item has not been exchanged with another, tampered with, or contaminated. Students at the
Border Patrol Academy are trained to maintain a log of all agents receiving or maintaining
custody of the drugs to establish chain of custody of the drugs. The Border Patrol
Handbook states that, "all items seized as evidence should be listed on an evidence
custody log (Form I-641)." Whenever evidence is placed in or taken out of Border
Patrol custody, the handbook requires that the transfer be recorded on this same form.
Many Border Patrol agents with whom we spoke were not aware of this form, and none of them
used it at the time of our field work. One station informed us that it has subsequently
begun using the I-641 for drug evidence chain of custody.
The Border Patrol Handbook also states that every Border Patrol sector should designate
an evidence custody officer and an alternate to be the sole agents who handle evidence
after it is logged in and secured, and to testify in court as to the receipt and release
of evidence. This policy ignores the fact that most evidence handling takes place at the
station level, and that evidence custodians are needed there to ensure that chain of
custody can be readily established. None of the four sector headquarters we visited has a
designated evidence custody officer. Only 3 of 17 stations we visited have a designated
evidence custody officer. One additional station indicated its intention of assigning an
evidence custody officer. The Border Patrol stations and sectors need to ensure that they
assign individuals as designated evidence custody officers, either full-time or as a
collateral duty as is the case at these three stations, and that there is full coverage
for all shifts by these officers or their designated alternates.
In most cases, the apprehending Border Patrol agent is the responsible officer for drug
evidence until it is turned over to another agency. However, when agents go off duty, or
return to the field after bringing the drugs to the station, many times there is no longer
anyone at the station specifically designated as the responsible officer for the evidence,
and no paperwork is completed to transfer that responsibility. The Border Patrol Handbook
states that the procedures of maintaining an evidence custody log and designating an
evidence custody officer, "... should be strictly obeyed to preserve the integrity of
evidence and uniformity throughout the Service." When Border Patrol agents fail to
maintain chain of custody in handling drug evidence, they not only disregard Border Patrol
procedure, but may also reduce the value of potentially important evidence in criminal
proceedings.
In addition to failing to document chain of custody when handling drugs within the
Border Patrol, agents also did not consistently record to whom they transferred drugs. In
general, Border Patrol sectors and stations filled out the Form I-44, Report of
Apprehension or Seizure, as the only record of a drug seizure case. At all of the stations
we visited, the I-44 was considered a substitute for the evidence custody log. However, at
some stations, the I-44 was not completed until after the receiving agency picked up the
drugs, and the Border Patrol later sent it to the agency for signature and date of
receipt. Often, the receiving agency failed to return the completed form to the Border
Patrol. In other sectors and stations, the Border Patrol gave the signed original I-44 to
the receiving agency and kept an unsigned copy. Both of these situations left the Border
Patrol vulnerable to charges of impropriety if the drugs had been lost or stolen. Of the
I-44s from the 367 Border Patrol-initiated drug seizure cases in our sample, 34 percent
did not even have signatures in the receiving agency section.7
This means that the Border Patrol had no verifiable record of who took custody of the
drugs it acquired in approximately one-third of its FY 1996 drug seizure cases from the
four sectors in our sample.
An additional problem when the Border Patrol transfers drugs to other agencies is
transfer response time. Border Patrol and DEA agents in the field, as well as
representatives from state and local agencies, informed us that the receiving agencies
usually picked up seized drugs within a couple of hours. However, 20 percent of the 367
I-44s in our sample were dated by the receiving agency one day or more after the drug
seizure occurred. These delays in pick-up times reinforce both the need for adequate
Border Patrol drug storage facilities and for uniform, written procedures regarding all
aspects of drug transfer.
While we ultimately accounted for the disposition of seized drugs in the case sample,
the lack of a uniform case tracking system made it difficult to follow up on the many
cases that had no receiving agency signature on the I-44. In one particular case, the I-44
was not only unsigned, but also listed the wrong receiving agency. We had to contact three
agencies to discover that the drugs had been picked up by the U.S.Customs Service. Had the
U.S. Customs Service not maintained a log, we would not have been able to determine the
final disposition of the drugs. The Border Patrol is relying on other agencies who receive
the drugs to maintain valid and accurate transfer, accountability, and chain of custody
records. Poor record keeping by the Border Patrol, if coupled with poor record keeping by
these receiving agencies, could result in the inability to determine whether seized drugs
were properly transferred or had been lost or stolen while in Border Patrol custody.
In FY 1996, in the El Paso and El Centro sectors, the Border Patrol turned over
approximately 50 percent of its drug seizure cases to state or local authorities.8 In spite of the volume of drug cases turned over to state and
local law enforcement agencies, the Border Patrol has few written policies or guidelines
to govern its drug transfers to these agencies. While the Border Patrol states it has few
complaints or problems regarding evidence turned over to state and local agencies, there
have been instances and allegations of corruption within some of these agencies. In
Laredo, Texas, the Border Patrol routinely turned over drug evidence and drug seizure
cases to the Sheriff's Department. Approximately a year and a half ago, several deputies
were investigated for smuggling drugs after switching the drugs in the evidence room with
alfalfa. The investigation resulted in four arrests and two convictions. Since this
incident, the local DEA office takes responsibility for all Border Patrol drug seizure
cases.
Because the Border Patrol cannot ensure that drugs transferred to another agency are
properly controlled and disposed of and that the agency is completely free of corruption,
internal accountability and accurate Border Patrol record keeping is essential to fend off
allegations of Border Patrol corruption. Accurate records by the Border Patrol could be
very important in any type of corruption investigation involving drugs that had been
seized by the Border Patrol.
While we recognize that drug storage is not the primary focus of the Border Patrol's
mission, Border Patrol agents do handle drugs regularly, and therefore INS needs to
improve its drug storage facilities. Additionally, to maintain a proper chain of custody
during drug evidence processing and transfer, the Border Patrol should utilize evidence
custody and accountability logs and implement a uniform tracking system. Chain of custody
should be maintained on the I-641 forms. Based on our findings, as well as on suggestions
from supervisory Border Patrol agents in the field, we believe Border Patrol stations
should maintain a bound drug seizure logbook, independent of the I-44 form. This logbook
would contain pertinent information about drug transfers, such as the name and signature
of the agent receiving the drugs and the name of the agency for which the agent works. The
Tucson Sector has already begun to utilize this type of an accountability logbook.
The Border Patrol Needs to Address Pursuing
Drug Smuggling Suspects and Securing Abandoned Drugs
The Border Patrol has no general policy on the pursuit of drug smuggling suspects
who abandon drugs and flee. Based on the border operations cases in our sample of FY 1996
drug seizure cases, when drug smuggling suspects were seen and pursued, 36 percent of the
cases resulted in the suspects dropping the drugs and escaping apprehension. In some of
these cases the Border Patrol agents ceased pursuit, and seized and secured the drugs, in
effect allowing the suspects to escape.
The Border Patrol's practices in the pursuit and apprehension of suspects in drug
seizure cases are inconsistent. In some instances in our case sample, I-44s indicate
suspects were chased until they escaped and simply could not be found. However, in other
cases it is clear that the Border Patrol agents either did not initiate pursuit or ceased
pursuit and seized the dropped drugs. Together these unsuccessful or unattempted pursuit
cases account for 15 to 20 percent of the border operation cases in our sample in the San
Diego, El Centro, and El Paso sectors, as depicted in Chart 1. In Tucson, the figure is 29
percent. There are circumstances when ceasing pursuit is reasonable and prudent, primarily
when the pursuit would endanger an agent's life. However, based on the narratives in the
I-44's and interviews with Border Patrol and DEA agents in the field, there are also
instances in which the Border Patrol agents ceased the pursuit to focus on the drugs
because they apparently did not fully understand the importance of suspect apprehension in
drug interdiction cases to enable prosecution and investigation.
The overall percentage of unsuccessful or unattempted pursuits for these four sectors
is 23 percent. This figure increases to 36 percent when one removes the abandoned cases in
which there was no visible suspect, and compares just the other two categories in which
there was a visible suspect. While there was no guarantee that the suspects in these cases
would have been apprehended had the pursuit not been interrupted, ceasing pursuit, even
temporarily, greatly increases, and in some cases ensures, the likelihood that there will
not be an apprehension. These numbers indicate an apparently unintentional shift in the
Border Patrol's priorities from apprehension of illegal alien drug smugglers to securing
dropped drugs.
Chart 1: Pursuit and Apprehension (248 Total Cases)9
Percentage of
Cases by Sector
Source: OIG Inspection Case Sample
The Border Patrol has no general written policies or guidance on when agents should
cease pursuit to secure dropped drugs, whether one agent or several are involved in the
pursuit. For example DEA has general policies and guidelines emphasizing the need for
agents to review possible contingencies and ensure that they are aware of and weigh all
the possible risks and benefits of those contingencies. While individual situations may be
complex, we believe that after weighing these risks and benefits, the emphasis should be
on apprehending suspected drug smugglers over securing the dropped drugs, especially when
the pursuit is taking place between the POEs and it is unlikely that anyone else would
abscond with the drugs while the suspect is being apprehended. If the Border Patrol
stresses the importance of apprehending the suspected alien drug smugglers, it will
increase the access to valuable drug intelligence as well as improve the opportunity to
deter drug smuggling by criminal prosecution and subsequent deportation.
In the El Paso sector, Border Patrol, DEA, and United States Attorney's Office
personnel with whom we met agreed that the number of successful pursuits and subsequent
prosecutions have increased as a result of a draft MOU governing local DEA and Border
Patrol operations. The written agreement has fostered a close, successful relationship
between the Border Patrol and DEA that includes the detailing of Border Patrol agents to
the DEA office. There, they not only work as liaisons to the Border Patrol sector, but
also, like DEA agents, serve as integral members of the task forces and teams. While
working on these teams, Border Patrol agents learned the necessity of suspect apprehension
to enable prosecution of a drug seizure case. Several El Paso Border Patrol and DEA agents
have credited their increase in case prosecutions to both the emphasis on suspect
apprehension and to dedicated case development by detailed Border Patrol agents.
1 Federal agencies along the Southwest border planned to spend
$1.897 billion in the drug control effort in FY 1998. This estimate, compiled by ONDCP,
includes funding for Customs, U.S. Attorneys, Federal Bureau of Investigation, DEA, INS
(including Border Patrol), U.S. Coast Guard, Department of Defense, and various
federal-state task forces.
2 The Director of the ONDCP advises the President regarding
necessary changes in the organization, management, budgeting, and personnel allocation of
federal agencies involved in drug enforcement activities. The Director is also responsible
for notifying these federal agencies if their policies are not in compliance with their
responsibilities under the National Drug Control Strategy.
3 In contrast to the large quantities of cocaine and marijuana
recovered, the Border Patrol seizes relatively small amounts of heroin and
methamphetamine.
4 These percentages are based on overall federal and Border
Patrol drug seizures along the Southwest border from FY 1993 through FY 1996. Overall
Federal drug seizure statistics on the amount of cocaine and marijuana seized along the
Southwest border in FY 1997 were unavailable at the time this report was written.
5 Drug interdiction is the disruption by law enforcement
authorities of the movement of illegal drugs. Drug investigation includes, among other
things, follow-up work on leads uncovered during interdiction and questioning of suspects
as to their involvement in the current offense and other drug smuggling activities.
6 This limited search and seizure authority, provided under
Title 21 of the United States Code, is in addition to a grant of authority under Title 19,
United States Code, that provides Border Patrol agents the authority to conduct border
searches without probable cause whenever agents observe any vehicle or person illegally
entering the United States.
7 Of the total 426 cases in our case sample, 367
were Border Patrol initiated cases. The other 59 were cases initiated by another agency
who later requested Border Patrol assistance. The I-44's for the cases in El Paso, El
Centro, and San Diego were collected from the sector headquarters. In Tucson, the I-44's
were received from the stations.
8 Drug seizure databases for the two sectors show
that 53 percent of all cases in FY 1996 were turned over to state and local law
enforcement agencies. El Paso and El Centro turned over 55.9 percent and 45.2 percent of
their drug seizure cases to state and local agencies, respectively. The Tucson Sector,
based solely on the cases from our case sample, had a much lower percentage with only 9.5
percent of its cases turned over to state and local agencies. Because Tucson did not have
a consolidated drug seizure database we could not obtain the statistics for all its cases
turned over to state and local law enforcement agencies. In San Diego, most of the cases
were turned over to Operation Alliance. The United States Attorney's Office and the
State's Attorney then decided who would prosecute the case.
9 All numbers in parenthesis on the charts refer to the total
numbers in each category. For Chart 1 the numbers are of cases and in Charts 2 and 3 the
numbers are of aliens. The total of 248 cases shown in Chart 1 consist of 100 drug seizure
cases with apprehensions in border operations and 148 drug seizure cases without any
suspect apprehension. Not included in Chart 1 are the 119 checkpoint cases because these
cases rarely involved pursuit and in the few that did the pursuit was vehicular and not
similar in nature to that of the border operations cases.
#####